<html>
<title> - H. CON. RES. 395, H. RES. 398, S. 1453, AND H. RES. 577</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




        H. CON. RES. 395, H. RES. 398, S. 1453, AND H. RES. 577

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2000

                               __________

                           Serial No. 106-189

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
69-867                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE P. RADANOVICH, California     [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
THOMAS G. TANCREDO, Colorado             Samoa
DAN BURTON, Indiana                  EARL F. HILLIARD, Alabama
CASS BALLENGER, North Carolina       BRAD SHERMAN, California
PETER T. KING, New York              WILLIAM D. DELAHUNT, Massachusetts
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
         Jeffrey A. Pilch, Democratic Professional Staff Member
                      Douglas C. Anderson, Counsel
                    Marta Pincheira, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H. Con. Res. 395, Expressing the sense of the Congress 
  condemning the September 6, 2000, militia attack on United 
  Nations refugee workers in West Timor and calling for an end to 
  militia violence in East and West Timor........................     1
Markup of H. Res. 398, calling upon the President to provide for 
  appropriate training and materials to all Foreign Service 
  officers, United States Department of State officials, and any 
  other executive branch employee involved in responding to 
  issues related to human rights, ethnic cleansing, and genocide, 
  and for other purposes.........................................     3
Markup of S. 1453, a bill to facilitate famine relief efforts and 
  a comprehensive solution to the war in Sudan...................    10
Markup of H. Res. 577, to honor the United Nations High 
  Commissioner for Refugees (UNHCR) for its role as a protector 
  of the world's refugees, to celebrate UNHCR's 50th anniversary, 
  and to praise the High Commissioner Sadako Ogata for her work 
  with UNHCR for the past 10 years...............................    13

                                APPENDIX

Text of H. Con. Res. 395.........................................    17
Text of H. Res. 398..............................................    23
Text of S. 1453..................................................    34
  Amendment offered by Hon. Christopher H. Smith.................    51
Text of H. Res. 577..............................................    56
  Amendment offered by Hon. Christopher H. Smith.................    59

Additional material submitted for the record:

Statement of Hon. Joseph Crowley on H. Con. Res. 395.............    62
State of Hon. Joseph Crowley on H. Res. 398......................    64

 
        H. CON. RES. 395, H. RES. 398, S. 1453, AND H. RES. 577

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2000

                  House of Representatives,
                      Subcommittee on International
                               Operations and Human Rights,
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:36 a.m. in 
Room 2200, Rayburn House Office Building, Hon. Christopher H. 
Smith [Chairman of the Subcommittee] presiding.
    Mr. Smith. The Subcommittee meets pursuant to notice to 
take up a number of resolutions, and we will begin with H. Con. 
Res. 395 and then proceed to the Armenian resolution and then 
to the remainder of the business.
    The Chair lays the resolution, H. Con. Res. 395, before the 
Committee. The Clerk will report the title of the resolution.


                   CONSIDERATION OF H. CON. RES. 395


    Mr. Rees. H. Con. Res. 395, Expressing the sense of the 
Congress condemning the September 6, 2000, militia attack on 
United Nations refugee workers in West Timor and calling for an 
end to militia violence in East and West Timor.
    Mr. Smith. Without objection, the Clerk will read the 
preamble and operative language of the resolution for 
amendment.
    Mr. Rees. Concurrent resolution expressing the sense of the 
Congress condemning the September 6, 2000, militia attack on 
United Nations refugee workers in West Timor and calling for an 
end to militia violence in East and West Timor.
    Mr. Smith. Without objection, the resolution is considered 
as having been read and is open to amendment at any point.
    The Chair recognizes himself for just a very brief opening 
comment and any comments of my Subcommittee colleagues, and 
then we will go to a vote.
    I am very proud to be the principal sponsor of H. Con. Res. 
395 relating to the recent killings in Indonesia and the U.S./
Indonesia military to military relationship. Over 2 years ago, 
just before the fall of the corrupt and dictatorial Suharto 
regime, this Subcommittee held a hearing on human rights in 
Indonesia.
    Our witnesses at that hearing were Indonesian human rights 
advocates who testified first that powerful elements of the 
Indonesian military were engaging in torture, extrajudicial 
executions and other atrocities against human rights defenders 
in East Timor, West Papua and Aceh, as well as throughout 
Indonesia.
    Second, they were unanimous in their view that the close 
relationship between the United States and Indonesian 
militaries, instead of improving the human rights situation, 
had empowered and emboldened murderers and torturers. We 
actually heard from one of those witnesses who had been 
tortured, Pius Lustrilanang, who gave us riveting testimony 
about what he had endured at the hands of his torturers.
    Subsequent to that, my Staff Director, Joseph Rees, and I 
went over and met with Habibie and many others, including 
military people, raised issues of human rights, and, while we 
had some hope, many of those hopes have been dashed in recent 
days.
    Much has changed in Indonesia in the last 2 years, however. 
The government of President Wahid and Vice-President Megawati 
is doing its best to bring Indonesia once and for all into the 
community of democratic nations. East Timor has been given its 
independence.
    Unfortunately, the Indonesian military still has not gotten 
the message. Instead of accepting civilian control of the 
military, powerful elements in the military are actively trying 
to destabilize the government. They are also continuing to 
train, arm, and support the militias that have terrorized East 
Timor's refugees in the camps in West Timor, attacked and 
killed U.N. peacekeepers in border skirmishes, and have now 
killed three unarmed civilian UNHCR refugee protection workers.
    This resolution makes clear that the United States 
Government should continue to support the civilian government 
of Indonesia, but it should not resume any relationship at all 
with the military until the military stops trying to 
destabilize the government, stops giving aid and comfort to the 
murderous militias, and allows the murderers and torturers 
within its ranks to be brought to justice.
    Any other policy would send exactly the wrong message to 
the perpetrators, as well as to the victims, and I do urge my 
colleagues to support this resolution.
    I would like to recognize my friend and colleague, Ms. 
McKinney, the Ranking Member of our Subcommittee, for any 
comments she might have.
    Ms. McKinney. Mr. Chairman, I would just say that I support 
this resolution.
    Mr. Smith. Are there any other Members who would like to be 
heard on this resolution?
    If not, then the gentleman from Arizona is recognized to 
make a motion to move the resolution to the Full Committee.
    Mr. Salmon. Thank you, Mr. Chairman.
    I move that the Subcommittee report the resolution 
favorably to the Full Committee.
    Mr. Smith. Without objection, the motion is agreed to and 
will be favorably to the Committee. I thank the gentleman for 
moving the resolution.
    We now will take up H. Res. 398, and the Chair lays the 
resolution before the Committee. The Clerk will report the 
title of the resolution.


                      CONSIDERATION OF H. RES. 398


    Mr. Rees. H. Res. 398, Calling upon the President to 
provide for appropriate training and materials to all Foreign 
Service officers, United States Department of State officials 
and any other executive branch employee involved in responding 
to issues related to human rights, ethnic cleansing and 
genocide and for other purposes.
    Mr. Smith. Without objection, the Clerk will read the 
preamble and operative language of the resolution for 
amendment.
    Mr. Rees. Resolution calling upon the President to provide 
for appropriate training and materials to all Foreign Services 
officers, United States Department of State officials and any 
other executive branch employee involved in responding to 
issues related to human rights, ethnic cleansing and genocide 
and for other purposes.
    Mr. Smith. Without objection, the resolution is considered 
as having been read and is open to amendment at any point.
    At this point, I would like to make a few opening comments 
and will yield to any Member of the Subcommittee who would like 
to make any comments and perhaps offer any amendments to the 
resolution.
    The Subcommittee again meets this morning to consider H. 
Res. 398. It urges the President to start calling the Armenian 
genocide by its rightful name. It also calls on the Secretary 
of State to ensure that U.S. diplomats and other officials are 
familiarized with the facts about the Armenian genocide.
    In 1915, there were about 2,000,000 Armenians living in 
what was then the Ottoman Empire, in a region that they had 
inhabited for 2,500 years. By 1923, well over 90 percent of 
these Armenians had disappeared. Most of them, as many as 
1,500,000, were dead. The remainder had been forced into exile.
    The United States Ambassador to Turkey at the time, 
Ambassador Henry Morgenthau, accused the government of the 
empire of a ``campaign of race extermination.'' The British, 
French and Russian Governments accused the Young Turk 
Government of ``a crime against humanity.'' Even the government 
of the Republic of Turkey, the successor state to the Ottoman 
Empire, tried and convicted a number of high ranking Young Turk 
officials for what the Turkish Government then called ``the 
massacre and destruction of the Armenians.''
    When the term genocide was invented in 1944, its author, 
Raphael Lemkin, illustrated the term by saying it was ``The 
sort of thing Hitler did to the Jews and the Turks did to the 
Armenians.'' Unfortunately, memories seem to have faded. The 
government of the Republic of Turkey, and some of its 
apologists in the U.S., now deny that the Armenian genocide 
ever happened.
    They do not deny that people died by the hundreds and 
thousands, but they fall back on the standard arguments used to 
defend the indefensible. They say it happened during wartime, 
that the Armenians were being deported because many of them 
were in sympathy with the enemies of the empire, and that the 
atrocities were random acts committed by civilians and by 
soldiers acting without authorization.
    These apologists dismiss contrary statements by 
representatives of the U.S., France, and England by saying that 
these officials were biased against the Ottoman Empire, but 
this dismissal ignores similar statements by Ambassadors of 
Germany and Italy who were allied with the empire in the first 
world war.
    Even among those in this country who do not deny the basic 
facts of the Armenian genocide, there often seems to be a 
conspiracy of silence. Whenever the issue threatens to surface 
in the House or Senate in Congress, we are firmly reminded by 
executive branch officials that Turkey is a NATO ally and has 
assisted us in pursuing important strategic objectives in the 
Middle East and elsewhere.
    Germany is also an important ally, and these same officials 
would never dream of denying or ignoring the Holocaust. Friends 
do not let friends commit crimes against humanity, or refuse to 
come to terms with such crimes once they have happened.
    Furthermore, H. Res. 398 is not even directed at the 
Republic of Turkey per se, and it does not call on the United 
States to urge present day Turkey to do anything.
    United States foreign policy must be realistic, and it must 
be flexible, but it also must not be complicit in a conspiracy 
of silence about genocide. This resolution is an important step 
toward ending that silence and deserves to pass because at its 
core it simply reaffirms that the United States foreign policy 
should begin by telling the truth.
    I would like to thank Congressman Radanovich, Congressman 
Bonior, and Mr. Rogan for their efforts in introducing this 
bill, and I strongly urge my Subcommittee colleagues to support 
it.
    I would like to yield to Ms. McKinney for any opening 
comments she might have.
    Ms. McKinney. Thank you, Mr. Chairman.
    I would just like to pass a word of warning to those 
lobbyists who would come here and give us disinformation, 
misinformation or outright lies. They forever shatter their 
credibility, at least with this representative.
    I have been shocked, outraged and appalled at the things 
that have been said to me about this resolution. Outrageous 
things have been said, suggesting that the Armenian genocide 
never happened or that since Turks were killed too it should 
not be called a genocide.
    In this place, I have vowed to never cast a vote that I 
regret. I have done that once, and I say I will never do it 
again. I, quite frankly, do not think this resolution goes far 
enough, but this is the resolution that we have before us today 
and so I will proudly cast my aye vote in support of this 
resolution.
    Mr. Smith. Thank you, gentlelady.
    Would any other Member of the Subcommittee--the gentleman 
from Indiana, Mr. Burton?
    Mr. Burton. Well, I have a prepared statement, which I will 
read in just a minute, but let me just say that this issue--I 
have been here 18 years, and I have been involved in this 
debate I do not know how many times. I have gone to the Floor 
with historical texts that talk about a genocide, and at the 
same time I had an equal or larger number of texts that had 
opposition views. There is no consistency in the views of all 
the things that happened.
    Now, last week we saw some pictures of people who died 
during this period. It was heart wrenching, gut wrenching, and 
there is no question that some human rights violations were 
violated, but the whole story needs to be told. Three million 
Turks died during that period of time, and there were many so-
called genocide or human rights violations on the other side as 
well.
    Now let me read my statement, and then I want to elaborate 
just a little bit further, Mr. Chairman. I hope you will bear 
with me. I am going to try to be brief because I know everybody 
has to be someplace else.
    Members last week heard testimony that established, in my 
view, beyond a doubt that reasonable people can disagree on 
this subject. We talked about other genocides that took place 
like with the American Indians and what is going on in the 
Sudan with the Christians, what is going on in Kashmir and 
Punjab at the hands of the Indian Government, what is going on 
between the Hutus and the Tutsis in Africa. I mean, there is a 
whole host of them that have been going on, and none of them 
are mentioned.
    I have an amendment in the nature of a substitute, but I am 
not going to bring it up today. I may bring it up at some point 
later in the process. For now let it be known that House 
Resolution 398 is seriously flawed. It is narrow, and it is 
one-sided; narrow because it puts forward only one example of 
man's inhumanity to man, and one-sided because it does not even 
get that example, in my opinion, straight.
    The resolution is also unnecessary. The Director General of 
the Foreign Service appeared before the Subcommittee last week 
and testified that the training called for in the resolution is 
already being given to the relevant personnel who serve in 
Turkey and Armenia.
    Finally, Mr. Chairman, let the record show that this 
resolution is dangerous. It is even more dangerous today than 
it was a week ago. Since we last met, Saddam Hussein has pushed 
the level of tension in the Persian Gulf to a level approaching 
that of the summer of 1990 when we had to go over there with 
550,000 people and fight a war.
    The press was reporting last weekend that there have been 
Iraqi incursions of Kuwaiti air space. Saddam has escalated the 
rhetoric using the same justification to invade Kuwait that he 
used in 1990, and military forces, our forces over there, are 
on heightened alert.
    I will tell you one thing for sure. If Saddam has an 
October surprise for the American people, the importance of 
Turkey as an ally and a strategic partner will once again be 
self-evident to everyone, and we may rue the day that we passed 
this resolution.
    Let me just say we have bases in Turkey that we are 
enforcing the no fly zone right now. We have hundreds of troops 
in Turkey that are working as support troops to make sure that 
we enforce the no fly zone. If Turkey were to close down our 
bases over there and not allow us to use the no fly zone and 
have our troops leave for some reason, then I want to tell you 
it would be a green light for Saddam Hussein. We would have to 
put more aircraft carriers over there and prepare, and I do not 
think we are ready to do that again.
    You know, back in 1990, the first foreign leader President 
Bush spoke to after Saddam Hussein invaded Kuwait was Margaret 
Thatcher. The second one he spoke to was Turgut Ozal, the 
president of Turkey. We could not have waged the Desert Shield 
and Desert Storm War without Turkey. They were an integral part 
of that, and we are not going to contain Saddam today without 
Turkey.
    Let me just end up by saying this. They have been a NATO 
ally with us for a long, long time. They have been with us in 
every conflict I can think of. They have always been an ally. 
They have stuck with us through thick and thin.
    We are going back 85 years, and there are historical 
differences of opinion on this whole issue. We are going to go 
back 85 years, and if we pass this resolution we are going to 
kick a very strong ally that is very necessary for our purposes 
because we get about 50 percent of our oil from that part of 
the world. We are going to kick them right where it hurts, and 
we are supposed to expect them to just say oh, that is okay.
    I do not think you are going to get that result. We have 
all been lobbied on this, as has been mentioned by the 
gentlelady a few minutes ago. Some do not like it. Some do not 
agree with some of the things that have been said, but the one 
thing the lobbying has done is shown that Turkey is very, very 
upset and concerned about this, and they are a big ally.
    To do this right now in the last 2 weeks of this session or 
last 3 weeks I think is a great mistake, and it could come back 
to haunt us.
    I yield my time.
    Mr. Smith. Thank you, Mr. Burton.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Mr. Chairman, I think whenever we mention 
the word genocide, to me it is an ugly word in the English 
language not only as a matter of history what happened to the 
Armenian people, but I think something that happens to any 
group of people or any race or nationality.
    Whatever may have happened in that course of history during 
the Ottoman Empire, I would be the last Member of this 
Committee to say that I am an expert on what happened during 
those early years of the 1900's in the Ottoman Empire, what 
happened to what then was known as part of the Ottoman Empire.
    I do not know if we should place the series of events that 
occurred in that period of time to the current government, for 
which I understand, it is my understanding, when you say 
Turkish people does it mean by ethnicity? Does it mean by 
revision? Does it mean by culture? Because it is my 
understanding the Balkans, Armenia and all those areas--it gets 
a little too complicated for me as to who is a Turk and who is 
not.
    It is my understanding for almost some 100 years some 
5,000,000 Muslim Turks were killed out of starvation or because 
of the tremendous amount of wars that took place in that region 
of the world.
    I do not know if this resolution goes far enough, in my 
humble opinion, in addressing the needs of the concerns of the 
Armenian community here in America, no more than I would 
suggest to the genocide if I were to suggest it happened to the 
Native American Indians, the genocide against African-
Americans, the genocide, if this is the word that we use so 
loosely.
    When do we put the word genocide? Two hundred and fifty 
thousand people murdered and tortured? Six million Jews? 
Twenty-five million Russians during the Stalin era? Shall we 
put the onus on the Russian Government of what Stalin did to 
some 25,000,000 people who were tortured and murdered at that 
period of time?
    This is the thing that troubles me about the substance of 
the resolution. If we are going to be putting something on the 
Armenians, for which I do not think there is any question in 
anybody's mind. We recognize that. It is my understanding 
President Clinton every year makes an official proclamation 
throughout our nation to recognize this terrible act committed 
against the Armenian.
    No more than I would suggest about the genocide of the 
Japanese military regime during World War II, the genocide. If 
we have a criteria or number here that we are talking about, to 
then consider something as genocide. If 5,500,000 millions 
Turks were murdered in a 100 year period because they were 
Muslims, is that considered a genocide?
    Again my limited knowledge of history, but to suggest if it 
was just the Armenians who were killed, my understanding is 
that some Armenians sided with the Russians, and was the bitter 
enemy of the Ottoman Empire where wars were constantly fought 
between the Ottoman Empire and the Austrian Empire and the 
Russian Empire. There were many empires during that period of 
time.
    There is no question that the Ottoman Empire died after 
World War I, and as of 1923 the Republic of Turkey was founded. 
I think if we were to fully examine the substance of the people 
who now live in Turkey, they are not all Turks. There are 
Armenians living there, too, and people from all different 
areas in the Balkans. I am having a problem here with the 
resolution to that extent, Mr. Chairman.
    If we are going to be addressing a genocide that has 
occurred toward the Armenians, let us also address the issues 
that are genocidal--I do not know if there is such a word in 
the English language. Let us talk about Pol Pot and the 
2,000,000 Cambodians that he murdered and tortured, the piles 
and mountains of skeletons and skulls that we see so often in 
the pictures. So if we are going to be passing this resolution 
to approve the situation to relate to the sufferings of the 
Armenian people, let us also do it for all these other people.
    Something also that is happening, Mr. Chairman, that I want 
to share. Never once did Turkey, throughout the 40 year period 
in our relationship during the height of the Cold War, never 
once did this country flinch in its commitment and 
responsibility in fighting against Communism, in allowing us to 
put up our strategic and military resources to fight Communism, 
if that was our national policy during that period of time.
    Never once did I hear Turkey say well, maybe not. France 
did. France did. Our own democratic ally supposedly was 
constantly giving us a hard time during that 40-year period. 
Turkey never once flinched in that responsibility.
    I am not trying to put some kind of a defense mechanism 
with whatever happened during that time to the Ottoman Empire. 
My question is if we are going to go back to the Ottoman 
Empire, let us go back to those eras. I have suggested earlier 
that we should also consider resolutions in total. Let us 
review. Let us hold hearings. Let us do something here so that 
there is a sense of fairness in what we are doing here.
    If we are singling out Armenia and the things that happens, 
and God bless them. I am totally for the concept that the 
genocide that was committed against Armenia ought to be 
rectified in some way, but let us also talk about fairness on 
other events that transpired 50 years ago or maybe 100 years 
ago, and this is where my concern comes in, Mr. Chairman, that 
the resolution does not go far enough. I just wanted to note 
that for the record.
    Mr. Smith. Thank you, Mr. Faleomavaega.
    I would like to recognize the gentleman from California, 
Mr. Sherman.
    Mr. Sherman. I would like to address what I think are the 
two principal issues brought up by speakers questioning the 
wisdom of this resolution.
    The first is that this resolution does not describe all the 
genocides. Just a few miles from here is the Holocaust Museum. 
Funded in part by this Congress every year, every year this 
Congress recognizes the genocides that are memorialized there, 
most especially the Holocaust.
    What happened to the Tutsi people in Africa, what happened 
to so many peoples around the world is well taught to our 
diplomats and is part of every history course in America, at 
least at the college level.
    This is the one genocide as to which the last element of 
the genocide is in progress now because the last element of a 
genocide is genocide denial; first to kill off people and then 
to kill off the memory that they were killed.
    Hitler tried to kill all the Jews of Europe, and a few 
misguided officials of a now defunct empire tried to kill the 
Armenians of Eastern Anatolia. We ought to recognize it 
precisely because so much effort is being put into denying it.
    We will pass other resolutions. Keep in mind the argument 
that a resolution is not complete can be used to defeat every 
resolution that comes before our Committee and Subcommittee. We 
are going to commend Slovakia I believe on the conclusion of 
democratic elections. What about the elections in Britain or 
Canada? We are not going to mention those in that particular 
resolution. Every resolution we deal with deals with a 
particular international issue and does not deal with 
necessarily similar issues in other parts of the world.
    The second argument is that the exigencies and 
practicalities of current American policy in the Middle East 
should control our behavior; that recognizing a genocide is 
less important than military bases. Let us remember that 
Germany played a critical role in our success in the Cold War 
and in our success in the Gulf War. Bases on German soil were 
just as important as those in any other country, and if Germany 
told us that in order to get along for the future we should go 
down to that Holocaust Museum and tear it down brick by brick, 
that some future German Government wanted to deny what the 
German Government did in the 1930's and 1940's, we would say 
no, and that no would be deafening.
    We cannot deny a genocide in the past because it provides 
us with some slight political benefit at the present, some 
opportunity to base our planes here or there, because 
ultimately America's power in the world is not based on bases. 
It is based upon the image that the United States can be 
trusted as the world's only superpower because to a greater 
extent than any other superpower that has existed on this 
planet, we have our decisions grounded in values, and if we 
start denying genocides because of current practical 
considerations then the Holocaust Museum could be torn down 
brick by brick if only the political mood in Germany was 
different.
    I would hope that the Turkish Government would join so many 
other governments around the world in recognizing that its 
predecessor governments committed some terrible acts. The first 
step in repairing the problems in this area would be for the 
Turkish Government to acknowledge what our government ought to 
acknowledge with this resolution, and that is that a genocide 
occurred. It occurred. It was perpetrated by people who are no 
longer alive, by a government no longer in existence. Let us 
acknowledge that, and then let us move on.
    Thank you.
    Mr. Smith. Thank you, Mr. Sherman.
    The Chairman announced that there is a vote occurring on 
the Floor. Mr. Radanovich, who was the prime sponsor of H. Res. 
398, had intended to speak to the Subcommittee and has waived 
that in lieu of the fact that some Members have to get on to 
other Committee assignment work.
    Mr. Crowley, too. I had invited him to say a few words, but 
in the interest of time we are going to move right to a vote. 
We would welcome your statement for the record.
    Are there any other Members seeking recognition? If not, 
the gentlelady from Georgia is recognized for a motion.
    Ms. McKinney. I move that the Subcommittee report the 
resolution favorably to the Full Committee, Mr. Chairman.
    Mr. Smith. Without objection, the motion is agreed to.
    The question is on the motion from the gentlelady from 
Georgia. All those in favor of the motion say aye.
    [Chorus of ayes.]
    Mr. Smith. All those opposed say no.
    [Chorus of noes.]
    Mr. Smith. The ayes have it, and the motion is agreed to.
    Mr. Burton. Mr. Chairman, I hope the record will reflect my 
opposition to the resolution.
    Mr. Smith. Without question.
    Without objection, the chief of staff may make technical, 
conforming and grammatical amendments to the measure and may 
prepare a substitute reflecting the Committee's action as a 
single amendment.
    The Subcommittee will stand in recess for about 10 minutes 
or so so Members can make the vote.
    [Recess.]
    Mr. Smith. The Committee will resume its hearing on the 
markup of S. 1453, the Sudan Peace Act.
    The Chair lays the bill before the Committee, and the Clerk 
will report the title of the bill.


                        CONSIDERATION OF S. 1453


    Mr. Rees. S. 1453, An Act to facilitate famine relief 
efforts and a comprehensive solution to the war in Sudan.
    Mr. Smith. Without objection, the Clerk will read the 
preamble and the operative language.
    Mr. Rees. Be it enacted by the Senate and House 
representatives of the United States of America in Congress 
assembled, Section 1, Short Title. This action may be----
    Mr. Smith. Without objection, the resolution is considered 
as having been read and is open to amendment at any point.
    I do have an amendment at the desk. I am going to ask the 
Clerk to report the amendment.
    Mr. Rees. Amendment to S. 1453 offered by Mr. Smith of New 
Jersey. Page 10, strike line 14 and all that follows through 
line 16 on page 11 and insert the following. Section 7,----
    Mr. Smith. Without objection, the objection is considered 
as having been read.
    The Chair recognizes himself for an opening statement and 
then yield to my good friend Mr. Payne, a Member of the Full 
Committee, and a very active Member of this Subcommittee, even 
though he is not on it.
    The Government of Sudan's genocidal religious war against 
the non-Muslim peoples of southern Sudan have turned the south 
into, in the words of one Sudanese priest, ``the hell of the 
earth.'' Enslavement, calculated starvation, forced conversion 
and the aerial bombardment of civilian targets such as schools, 
churches, and hospitals are still methods of terror favored by 
the National Islamic Front Government.
    Unfortunately, Khartoum has also begun generating the 
revenue it needs to extend its self-described jihad by 
developing Sudanese oil resources.
    S. 1453, the Sudan Peace Act, is an important first step 
toward addressing the crisis in that war torn region. Among 
other things, the bill condemns slavery and other human rights 
violations perpetrated by the Khartoum regime, expresses 
support for the IGAD sponsored peace process, expresses a sense 
of Congress on several subjects relating to the improvement of 
relief services in the south of Sudan, authorizes an additional 
$16,000,000 for rehabilitation assistance to areas of Sudan not 
controlled by the government in the north, and requires the 
President to report to Congress on several aspects of the 
conflict, as well as options available to the U.S. for 
providing non-lethal assistance to members of the National 
Democratic Alliance.
    These are all good things, but the horrors of the Sudan 
have already claimed more than 2,000,000 lives and demand more 
than an expression of concern and new reporting requirements. 
They require concrete action.
    For this reason, I strongly support an amendment that I 
will be offering momentarily which reinstates certain sanctions 
that were present in both the House and Senate introduced 
versions of the bill.
    Unless the President can certify that Khartoum has made 
significant progress toward peace and respect for human rights, 
the amendment would impose certain trade and financial 
sanctions intended to keep the government of Sudan from raising 
funds in U.S. capital markets. The robust U.S. economy should 
not be used to underwrite an ongoing genocide.
    I would like to yield to my good friend Mr. Payne for any 
comments he might have.
    Mr. Payne. Thank you very much, Mr. Chairman, and thank you 
for allowing me to continually sit in on your Committee. I 
commend you for any work that you have done.
    I would like to thank you for calling this markup on S. 
1453, the Sudan Peace Act, which replaces Representative J.C. 
Watts' bill, of which I am a co-sponsor. I have been supportive 
of peace in Sudan, as you know, for some time now, just as you 
have.
    This amendment will codify those comprehensive sanctions 
the Administration placed on Sudan November 4, 1997, and is in 
line with what Senator Brownback introduced in the Senate 
Conference Committee. The sanctions cover the sale of stocks 
and other financial instruments that support financial 
transactions with Sudan. This has proven very effective with 
Talisman Energy, Inc., a Canadian firm operating in Sudan whose 
stocks have plummeted because of public outrage on this issue. 
Similar leverage was placed on South Africa during the height 
of apartheid in the 1980's and early 1990's.
    The people of Sudan continue to suffer under the brutal 
dictatorship of the extremist National Islamic Fund Government. 
Over the past decade, an estimated 2,000,000 people have died 
due to famine and war related causes. In 1998 alone, an 
estimated 100,000 people died because the NIF Government denied 
United Nations humanitarian much needed food aid to be 
delivered into the needy parts of the south.
    As we debate this bill, many more people will die due to 
the National Islamic Fund Government's deliberate and 
indiscriminate bombing of civilian targets, including hospitals 
and schools.
    During my trips there, we were warned that the bombs might 
come, and we, as I have mentioned before, watched the chickens 
because they could hear the planes, the Antinoffs, old Russian 
planes that would be coming. Then the children would run, and 
then people would try to go under trees or wherever they can to 
be out of sight. The last time they simply bombed a hospital 
and a school. In the past several months alone, the Sudan 
Government has bombed over a dozen civilian targets, including 
a hospital run by the Samaritan Purse in Lee in southern Sudan.
    A whole generation of southern Sudanese is dying, Mr. 
Chairman, while the international community turns a blind eye 
to the suffering of the helpless. An entire generation of 
children are not being educated, which in itself is a human 
travesty. What does it take to get the attention of the 
international community to end this unnecessary suffering of 
the innocent?
    In 1994, the United States and the rest of the world 
watched while 1,000,000 were being hacked to death in Rwanda. 
We could have done something to save the lives, but we did not. 
We can make a difference in Sudan if we act now.
    Mr. Chairman, I am tired of simply talking about the number 
of people being maimed, killed, enslaved and forcibly displaced 
in Sudan, for it has gotten us nowhere. I am also weary of 
making false promises to the people of southern Sudan that 
their suffering will come to an end, their children will be 
emancipated from slavery, and the bombs will cease to fall from 
the sky.
    I am sickened and saddened to see an innocent child blown 
to pieces in school while the international community watches 
with indifference. I am pleading with you and the people of the 
world and the United States and our Congress and our 
Administration to do the right thing. Let us help bring an end 
to the suffering of the helpless.
    Mr. Chairman, the least we can do is to assist those 
protecting the defenseless citizens. The least we can do is to 
provide funds for non-lethal assistance, such as medicine, 
vehicles, field hospitals and communications equipment, 
including a radio transmitter to counter the NIF propaganda.
    The NIF Government is using its newfound oil revenues to 
buy arms to destroy the opposition. We should not allow the 
extremists to win. We must help create a level playing field if 
there is going to be meaningful negotiations and a just 
settlement to this conflict.
    We must do more to bring a just peace in Sudan. I urge my 
colleagues to support this resolution, which calls for support 
for groups protecting civilians against indiscriminate 
bombings, slavery and terror.
    Thank you very much, Mr. Chairman. Let me commend you again 
for your steadfastness on this issue. With that, I yield back 
the balance of my time.
    Mr. Smith. Thank you very much I say to my good friend from 
New Jersey for his ongoing and longstanding support of human 
rights around the world and especially for Africa, which gets 
scant attention in Congress and from the executive branch, 
whether Republican or Democrat. Again, I think this resolution 
helps, but it certainly is not a panacea. It is a step in the 
right direction.
    The question occurs on the amendment, the Chairman's 
amendment. All those in favor of the amendment will say aye.
    [Chorus of ayes.]
    Mr. Smith. All those opposed say no.
    [No response.]
    Mr. Smith. The ayes appear to have it, and the amendment is 
agreed to.
    I now move that this bill, S. 1453, as amended, be reported 
favorably to the Full Committee.
    The question is on my motion. All those in favor of the 
motion say aye.
    [Chorus of ayes.]
    Mr. Smith. All those opposed say no.
    [No response.]
    Mr. Smith. The ayes have it, and the motion is agreed to.
    Without objection, the chief of staff may make technical, 
conforming and grammatical amendments to the bill as passed.
    Again, I want to thank my good friend very much for 
participating and for his great work.
    We have one final piece of business for the Subcommittee to 
address. We will now consider H. Res. 577, and the Clerk will 
report the measure.


                      CONSIDERATION OF H. RES. 577


    Mr. Rees. H. Res. 577, To honor the United Nations High 
Commissioner for Refugees [UNHCR] for its role as a protector 
of the world's refugees, to celebrate UNHCR's 50th anniversary 
and to praise the High Commissioner Sadako Ogata for her work 
with UNHCR for the past 10 years.
    Mr. Smith. Without objection, the Clerk will read the 
preamble and operative language of the resolution and open it 
for amendment.
    Mr. Rees. A resolution to honor the United Nations High 
Commissioner for Refugees UNHCR for its role as a protector of 
the world's refugees----
    Mr. Smith. Without objection, the resolution is considered 
having been read and is open to amendment at any point.
    I would just like to make a very few brief comments on this 
resolution, H. Res. 577. I am proud to be a co-sponsor of this 
resolution introduced by my good friend and colleague, Tony 
Hall, whose commitment to human rights and humanitarian 
principles is well known. The resolution celebrates the 50th 
anniversary of the office of the United Nations High 
Commissioner for Refugees, commends the UNHCR for its good work 
over the years, and congratulates the present High 
Commissioner, Dr. Ogata, who will be retiring in December.
    As the resolution points out, it is important that the 
UNHCR never forget that at the heart of its mandate is 
protection. Donor countries like the United States often forget 
this. Our contributions for refugee protection around the world 
is about 20 percent lower than it was 5 years ago, and most of 
the countries have done even worse.
    Countries of first asylum, to which refugees have fled from 
persecution or the fear of persecution, often wish that they 
would just go away, and sometimes the brutal regimes from which 
they fled are only too happy to have them back, so there is 
always pressure on UNHCR to pretend that mass repatriation 
would be safe, when it is in fact very dangerous, or to pretend 
that repatriation is voluntary, when in fact the refugees and 
asylum seekers are given no choice.
    Occasionally, as in the so-called Comprehensive Plan of 
Action for asylum seekers from Indochina, the UNHCR has yielded 
to this pressure. On these occasions, I and other Members of 
Congress have been among UNHCR's strongest critics. On many 
other occasions, however, UNHCR has stood up for the principle 
of protection even at great risk to its own institutional 
interest. This resolution celebrates those instances of courage 
and compassion over the last 50 years and particularly during 
the stewardship of Dr. Ogata.
    I will be offering a technical to perfect the amendment 
that was drafted with the assistance of the bill sponsor, and I 
urge that the resolution be reported favorably.
    Mr. Payne?
    Mr. Payne. Thank you, Mr. Chairman. I would like to commend 
you and Mr. Hall for your support of this resolution honoring 
Mrs. Ogata.
    I have had the privilege of working in the area of refugees 
for many, many years as a member of the National Board of the 
YMCA in its International Division. I was elected to the YMCA's 
World Alliance Committee and work with refugees and 
rehabilitation back in 1969, and I served on that Committee up 
until 1981 and as its chair from 1972 to 1981.
    Our sole responsibility of our three times we would meet in 
Geneva would be dealing with refugees and trying to 
rehabilitate them, so there is a job that many people realized 
to understand the magnitude of the problems of refugees. It is 
enormous.
    I have had the good fortune to meet with Ms. Ogata on a 
number of occasions. We were in Goma together when the refugees 
from Rwanda went into Goma in eastern Zaire back in the early 
1980's or early 1990's. She has been there fighting for the 
rights of refugees saying that they have a right to be out of a 
country. They should not be forced back. She has made some very 
strong stands, and so I could not agree with you more.
    Just the other day she went to the Taliban up in 
Afghanistan, and she personally went up to the leadership of 
that very brutal organization and chastised them on their 
treatment of women. She is a brave, brave person, very 
committed, and I would like to add my support about her great 
work and the work of the UNHCR in its 50th anniversary, Mr. 
Chairman.
    Mr. Smith. Thank you, Mr. Payne.
    Just so the record will reflect it, we are working right 
now on trying to beef up the appropriations for the refugee 
budget. As you know, M. Payne, because you were very helpful in 
the language, the legislation in the State Department 
reauthorization bill and Embassy Security Act, of which I was 
the prime author, had $750,000,000 for fiscal year 2001. It was 
signed by the President. It beefs it up substantially, more 
than $50,000,000 from what was appropriated last year, and now 
we are trying to get the appropriators to go up to that 
authorized level.
    We are awash in refugees, and to think that there is not 
enough money when it has been authorized and we have huge 
surpluses is not even penny wise. It is just pound foolish.
    Mr. Payne. That is right.
    Mr. Smith. So we are going to do what we can to get the 
appropriators to reach that.
    I have an amendment at the desk, and the chief of staff 
will report that amendment.
    Mr. Rees. Amendment in the nature of a substitute to H. 
Res. 577 offered by Mr. Smith of New Jersey.
    Mr. Smith. Without objection, the reading of the amendment 
will be dispensed with. Just to make a point, this is a 
technical amendment. It beefs up the language in the 
resolution. There were some grammatical errors in the original 
draft, which now have been rectified.
    Mr. Payne, I guess you have already had your say. Do you 
want to speak on this?
    Mr. Payne. No. That is fine. Thank you.
    Mr. Smith. I move that the Subcommittee adopt my amendment 
in the nature of a substitute. The question occurs on the 
amendment in the nature of a substitute. All those in favor of 
the amendment say aye.
    [Chorus of ayes.]
    Mr. Smith. All those opposed say no.
    [No response.]
    Mr. Smith. The ayes have it, and the amendment is agreed 
to.
    I move that the Subcommittee report the resolution, as 
amended, favorably to the Full Committee.
    The question is on the motion of the gentleman from New 
Jersey, the Chairman of the Subcommittee. All those in favor of 
the motion say aye.
    [Chorus of ayes.]
    Mr. Smith. All those opposed say no.
    [No response.]
    Mr. Smith. The ayes have it, and the motion is agreed to.
    Without objection, the chief of staff may make technical, 
conforming and grammatical amendments to the bill just passed.
    My good friend from Colorado, Mr. Tancredo, is recognized.
    Mr. Tancredo. Thank you, Mr. Chairman.
    I just wanted to make a statement with regard to the Sudan 
Peace Act and my sincere appreciation for your, number one, 
taking up the issue and, number two, for inserting the language 
with regard to sanctions into the bill.
    I could not help but be struck by the irony of the fact 
that a short time ago the United States Government was 
threatening sanctions against Peru, economic sanctions against 
Peru, because of concerns we had about their electoral process, 
and yet we were unable to come up with that same degree of 
fortitude when it comes to the conditions in Sudan. As I say, I 
could not escape the irony in that.
    I recognize full well that the inclusion of that particular 
provision makes the passage of the bill more difficult, 
certainly more problematic, but it makes the bill meaningful. 
Frankly, without it it is nothing more than a resolution, and 
so I just really came specifically to thank you very much for, 
number one, having the hearing; number two, for including that 
provision and making this a meaningful piece of legislation, 
which I recognize makes it more difficult, as I said.
    With your leadership and with other Members who I know, Mr. 
Payne especially, I have a feeling that we are going to get a 
lot farther with this than others had anticipated. That is all 
I really have to add.
    Mr. Smith. I thank the gentleman for his comments.
    Let me say and let the record reflect that the amendment 
just offered was authored by Mr. Tancredo. He wrote it, and Mr. 
Payne made a major contribution to it. It was very much a 
bipartisan resolution on the sanctions, and I want to thank him 
and Mr. Payne for their leadership on that.
    Mr. Payne. I would also like to thank Mr. Tancredo for his 
first codel. His first trip as a Member of Congress was to go 
to the south of Sudan where he witnessed also where the 
Antonovs came. You remember when we hear the stories about the 
bombings. He stayed in a hut like we do all the time and sit 
around the fires and talk, listen to the people and our good 
friend, Father--what is his name?
    Mr. Smith. Father Dan.
    Mr. Payne. Father Dan, who I see, who has been there for 
years and years. He is a former priest. He has given his life 
for refugees in Sudan and the opportunity to just meet so many 
strong people.
    I would like to commend the gentleman from Colorado for his 
strong interest in this issue.
    Mr. Tancredo. Thank you. Thank you.
    Mr. Smith. Without any further comments, that concludes the 
business of the Subcommittee. I want to thank our Members for 
being here.
    This markup is adjourned.
    [Whereupon, at 11:51 a.m. the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
